NO. _________
In the

Supreme Court of the United States
____________
TONI SHARRETTS COLLINS,
Petitioner
v.
WILLIAM ZOLNIER,
Respondent
__________
Appeal from the Supreme Court of Texas
Cause No. 19-0795
____________
APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR CERTIORARI
TO THE UNITED STATES SUPREME COURT
______________
TONI L. SHARRETTS COLLINS
LAW OFFICE OF TONI L. SHARRETTS COLLINS
Unites States Supreme Court Bar No. 312013
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 – Telephone
iceattorney@aol.com
Pro-se
Feb. 24, 2020
_________________
1

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Fifth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
Petitioner prays for a sixty (60) day extension of time to file her petition for certiorari
in this Court to and including May 3, 2020.
On Oct. 13, 2017, the trial court granted a summary judgment, which is the
decision sought to be reviewed. On May 30, 2018, the Ninth Court of Appeals of
the State of Texas affirmed the trial court’s judgment. On Dec. 6, 2019, the Texas
Supreme Court denied Petitioner’s petition for review. Petitioner’s time to petition
for certiorari in this Court expires March 6, 2020. This application is being filed
more than 10 days before that time.
Copies of the opinion and orders referenced above are attached.

The

jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
This case involves whether a false statement in a judicial proceeding receives
protection under the First Amendment if the defamatory statement bears no logical
relationship to the judicial proceeding, is not a matter of public concern, is clearly
expressed and is reasonably interpreted to damage the career and reputation per se.
In the instant case, Respondent made express written ex parte defamatory statements
to a bankruptcy trustee that the wife of the bankrupt’s judgment creditor was a drug
addict, cocaine dealer and that she had involvement in her husband’s first divorce
2

proceedings, none of which were true, all of which were harmful per se.
This case presents important questions under the Constitution of the United
States that were determined adversely to Petitioner by the court below in violation
of the First Amendment protections. People cannot say whatever they want and get
protection under the First Amendment judicial privilege if the statement has not a
scintilla of logical relation to the judicial proceeding.
Petitioner at all times been represented herself pro-se. The requested
extension is necessary because the final decision came down during the holidays.
Then, in January and February, Petitioner suffered debilitating illness coupled with
continuous high fever and was unable to work. Petitioner needs additional time to
understand this Court’s protocol and to perform the necessary legal research so that
the questions may be properly framed and argued to this Court.
For these reasons, Petitioner respectfully request that an order be entered
extending her time to petition for certiorari to and including May 3, 2020.
Respectfully submitted,
s/ Toni L. Sharretts Collins
TONI L. SHARRETTS COLLINS
February 24, 2020
SCOTUS Bar No. 312913
11054 North Hidden Oaks
Conroe, Texas 77384
(281) 827-7749 – telephone
iceattorney@aol.com
Pro-Se
3

